E-Mail Address: 775 H Street, N.E.
Est, JoaT

briefs@wilsonepes.com Washington, D.C. 20002
WSO TG Web Site: Tel (202) 789-0096
4 www.wilsonepes.com Fax (202) 842-4896
No. 20-875

SOK KONG, TRUSTEE FOR NEXT-OF-KIN OF
Map KONG, DECEDENT,

Petitioner,
v.

CITY OF BURNSVILLE, MAKSIM YAKOVLEV,
JOHN MOTT, AND TAYLOR JACOBS,

Respondents.

AFFIDAVIT OF SERVICE

I HEREBY CERTIFY that on April 16, 2021, the following counsel have expressly waived service
of paper copies by mail and have requested electronic service and that true and correct electronic
copies of the BRIEF IN OPPOSITION TO PETITION FOR WRIT OF CERTIORARI were served
on the following counsel at the e-mail addresses indicated:

DAVID MICHAEL SHAPIRO STEVEN J. MESHBESHER

RODERICK & SOLANGE MESHBESHER & ASSOCIATES
MACARTHUR JUSTICE CENTER 9800 Shelard Pkwy, Ste. 310

NORTHWESTERN PRITZKER SCHOOL OF LAW Minneapolis, MN 55441

375 East Chicago Avenue steve@stevemeshbesher.com

Chicago, IL 60611 rich@stevemeshbesher.com

(312) 503-0711
david.shapiro@law.northwestern.edu

Wk,

ROBYN DoRSEY WILLIS

WILSON-EPES PRINTING COMPANY, INC.
775 H Street, N.E.

Washington, D.C. 20002

(202) 789-0096

Sworn to and subscribed before me this 16th day of April 202.

 
    

COLIN CASE
NOTARY PUBLIC
District of Columbia

My commission expires April 14, 2022.

 
